HHS/OIG-Audit--"Audit of Administrative Costs - Medicare Parts A and B--AetnaLife Insurance Company, (A-01-95-00504)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs - Medicare Parts A and B--Aetna Life Insurance Company," (A-01-95-00504)
January 18, 1996
Complete
Text of Report is available in PDF format (1.62 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit covered costs claimed on Aetna Life Insurance Company's final administrative cost proposals for Parts A and
B of the Medicare program for Fiscal Years 1990 through 1994. Of the total claimed, we recommended financial adjustments
of $2,938,223 (Part A - $698,785 and Part B - $2,239,438).